IN THE
SUPREME COURT OF THE UNITED STATES
NO:

ITALO EBARISTO NAPA MOREIRA,
Petitioner,

v.
UNITED STATES OF AMERICA,

Respondent.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Eleventh Circuit

DECLARATION VERIFYING TIMELY FILING

Petitioner Italo Ebaristo Napa Moreira, by and through undersigned counsel,
and pursuant to Sup. Ct. R. 29.2 and 28 U.S.C. 1746, declares the petition for writ
of certiorari filed in this matter was served by Federal Express, prepaid, addressed
to the Clerk of the Supreme Court of the United States, on this 10th day of May,
2020, prior to the date the petition for writ of certiorari is due on July 13, 2020,
that is, ninety days after the April 14, 2020 judgment of the United States Court of

Appeals for the Eleventh Circuit.
Surfside, Florida
July 10, 2020

Respectfully submitted,

a

artin A. Feigenbaum
Counsel for Petitioner Napa Moreira
Florida Bar No. 705144
P.O. Box 545960
Surfside, Florida 33154
Telephone: (305) 323-4595
Facsimile: (844) 274-0862
Email: innering@aol.com

 
   
